 U.S. Department of Agriculture
  Office of Inspector General
       Northeast Region
          Audit Report


FOOD SAFETY AND INSPECTION SERVICE
  IMPORTED MEAT AND POULTRY
     REINSPECTION PROCESS
             PHASE II




                Audit Report No.
                24099-04-Hy
                February 2003
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


DATE:           February 25, 2003

REPLY TO
ATTN OF:        24099-04-Hy

SUBJECT:        Imported Meat and Poultry Reinspection Process—Phase II

TO:             Garry L. McKee
                Administrator
                Food Safety and Inspection Service

ATTN:           Ronald F. Hicks
                Acting Assistant Administrator
                Office of Program Evaluation, Enforcement and Review


This report presents the results of the second phase of our audit of Food Safety and
Inspection Service’s controls to ensure that imported meat and poultry entering U.S.
commerce is safe and wholesome.            Your response to the official draft, dated
January 28, 2003, is included as exhibit A with excerpts and the Office of Inspector
General’s position incorporated into the Findings and Recommendations section of the
report. Based on your response, management decisions have been reached on all
recommendations except Nos. 2, 3, 4, and 5. Please follow your agency’s internal
procedures in forwarding documentation for final action to the Office of the Chief Financial
Officer. Management decisions for the remaining recommendations can be reached once
you have provided the additional information outlined in the report section OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation
of the remaining recommendations. Please note that the regulation requires management
decision to be reached on all recommendations within 6 months of report issuance.


        //S//

RICHARD D. LONG
Assistant Inspector General
  for Audit
                      EXECUTIVE SUMMARY

               FOOD SAFETY AND INSPECTION SERVICE
         IMPORTED MEAT AND POULTRY REINSPECTION PROCESS
                             PHASE II

                       AUDIT REPORT NO. 24099-04-HY


                                   This report presents the results of the second
      RESULTS IN BRIEF             phase of our audit of the Food Safety and
                                   Inspection Service’s (FSIS) controls to ensure
                                   that imported meat and poultry entering U.S.
         commerce is safe and wholesome.

           FSIS is to fulfill its responsibilities for ensuring that imported meat and
           poultry in the U.S. marketplace is safe, wholesome, unadulterated, and
           properly labeled by (a) determining if foreign countries and their
           establishments have implemented food safety systems and inspection
           requirements equivalent to those of the United States, and (b) reinspecting
           imported meat and poultry products from these countries, through random
           sampling of shipments. The reinspection process is designed to be a check
           on the effectiveness of foreign countries’ inspection systems.

           The first phase of our audit focused on FSIS’ controls for evaluating the
           equivalency of foreign food safety systems. This second phase examined
           FSIS’ controls over the import reinspection process, which included visits to
           import inspection houses. We also reviewed FSIS’ actions in response to
           our Phase I recommendations.

           During the first phase of our audit, we identified weaknesses in FSIS’
           management of its imported meat and poultry program. The agency’s 1997
           reorganization had eroded controls within the reinspection process, leaving
           the lines of responsibility unclear. While individuals had been tasked with
           specific functions, no one had accepted full responsibility for ensuring the
           integrity of the process. Responsibility for reinspection was fragmented and
           serious weaknesses were not addressed.

           We found that as a result of decentralized leadership, foreign establishment
           annual certification requirements were not met; laboratory test reporting was
           not consistent; and foreign establishment delistment information was not
           timely and accurately processed. We concluded that the weaknesses in the
           import inspection process were material and should be included in the

USDA/OIG-A/24099-04-Hy                                                           Page i
           agency’s annual report required by the Federal Manager’s Financial Integrity
           Act. These results were reported in Audit Report No. 24099-03-Hy, Food
           Safety and Inspection Service Imported Meat and Poultry Inspection
           Process Phase I, issued June 21, 2000.

           During this second phase, we concluded that FSIS’ deficiencies in
           accountability continue and have also impacted the reinspection of imported
           product. FSIS does not adequately ensure that foreign establishments
           importing meat and poultry products to the United States are eligible to do
           so. Our audit tests identified over 7.7 million pounds of product that entered
           U.S. commerce between January 1999 and March 2001 from 37 foreign
           establishments whose eligibility status as recorded in the information system
           was contradicted by documents made available to us by FSIS during our
           review. Due to FSIS’ lack of oversight, the agency was unaware of this until
           our audit questioned the establishments’ eligibility.        Some of these
           establishments were located in Argentina, Uruguay, the United Kingdom,
           and Italy, four countries that had outbreaks of foot and mouth disease in
           2001. FSIS provided evidence to support the eligibility of all but 823,632
           pounds of the product. The agency needs to take the appropriate action on
           this product.

           Unclear lines of responsibility, lack of procedures, and lack of management
           oversight adversely affected FSIS’ actions to correct past deficiencies,
           manage eligibility data used in the reinspection process, and clarify agency
           authority over imported product.

           Correcting Past Deficiencies. FSIS has made minimal progress toward
           establishing an effective import reinspection process, even though the
           agency agreed to do so in response to our June 2000 audit report. We had
           recommended that FSIS perform an indepth assessment of its import
           inspection operations and improve management oversight and control. The
           agency did not complete either corrective action because no one was held
           accountable for implementing the prior report recommendations and no
           mechanism was established to alert top FSIS management officials that this
           work was not being done. During our current review, FSIS officials
           acknowledged in discussions with us that they needed to effectively
           supervise and manage the import reinspection process.

           The following table shows the current status of 18 of the 35
           recommendations made in our June 2000 audit report, related to the
           reinspection portion of FSIS’ import inspection operations. (The remaining
           17 recommendations are being evaluated as part of our review of FSIS’
           equivalence determination process, Audit No. 24099-05-Hy.) In the table,
           the “Management Decision Reached” column indicates whether agreement
           has been reached on FSIS’ response to the prior recommendations. The

USDA/OIG-A/24099-04-Hy                                                           Page ii
           “Adequate Action” column represents our current assessment of the actions
           FSIS previously agreed to take.

                                               Management   Adequate     Presented
                   Phase I Report
                                                Decision     Action          in
                  Recommendations
                                                Reached      by FSIS    This Report
            1. Conduct an indepth
               assessment of the current
               organizational structure to
               establish a system of control
                                                  YES          NO       Finding No. 1
               objectives and processes to
               ensure that the goals of
               import inspection are
               achieved.
            2. Require increased
               management oversight and
               approval of changes to import      YES          NO       Finding No. 1
               inspection operations and
               procedures.
            3. Provide management control
                                                  YES          NO       Finding No. 1
               training to agency managers.
            4. Revise FSIS Directive 1090.1
               to incorporate the provisions
               of OMB Circular A-123,
               revised “Management
               Accountability and Control,”
               dated June 21, 1995, and to
                                                  YES         YES
               document specific control
               objectives and the review
               procedures that will provide
               management reasonable
               assurance on the
               effectiveness of controls.
            5. Require the FSIS Internal
               Control Staff to conduct
               periodic independent
               assessments of FSIS’
                                                  YES          NO       Finding No. 1
               programs and operations,
               emphasizing those processes
               that changed in the
               reorganization.
            6. Report the conditions
               disclosed in this audit as
               material management control        NO                    Finding No. 1
               weaknesses in the import
               inspection process.




USDA/OIG-A/24099-04-Hy                                                        Page iii
                                                  Management   Adequate    Presented
                     Phase I Report
                                                   Decision     Action         in
                    Recommendations
                                                   Reached      by FSIS   This Report
            7. Review the roles and
               responsibilities of personnel
               involved in the equivalence
               determination process, the
               onsite review process, and
                                                     YES         YES
               the input of data to update the
               Automated Import Information
               System, and define more
               specifically the authority and
               responsibilities of those units.
            9. Provide training to all
               inspectors responsible for
                                                     YES         YES
               conducting inspections of
               imported products.
            13. Streamline the process and
                establish procedures that
                would allow expeditious entry
                                                     YES          NO      Finding No. 1
                of laboratory test results into
                the Automated Import
                Information System.
            14. Require the Office of Field
                Operations to work with
                Technical Service Center and
                Field Automation and
                Information Management
                Division to develop
                management controls and a
                supervisory review process to
                ensure that all laboratory test
                results are promptly and             YES                  Finding No. 1
                accurately entered into the
                Automated Import Information
                System. Management
                controls must include
                requirements for maintaining
                records of when failure
                notifications are received and
                when the entries are made in
                the AIIS.
            15. Officially notify all countries
                importing meat and poultry
                into the United States that
                annual certifications are due
                no later than the established
                                                     NO                   Finding No. 2
                date and that establishments
                that are not certified by this
                date may be delisted.
                Incorporate this requirement
                in regulations.

USDA/OIG-A/24099-04-Hy                                                         Page iv
                                                 Management   Adequate    Presented
                    Phase I Report
                                                  Decision     Action         in
                   Recommendations
                                                  Reached      by FSIS   This Report
            16. Establish a followup process
                to obtain the annual
                certification lists from            YES          NO      Finding No. 2
                countries, which have not
                submitted them.
            17. Immediately conduct
                reconciliation between
                establishment certification
                information maintained by the
                Equivalence and Planning
                Branch and the Automated
                Import Information System to
                                                    YES          NO      Finding No. 2
                ensure that the Automated
                Import Information System
                includes only those
                establishments certified by
                their foreign governments to
                ship products to the United
                States.
            18. Establish time requirements
                and a management control
                process for reviewing and
                                                    YES          NO      Finding No. 2
                processing certification
                information in the Automated
                Import Information System.
            19. Take immediate action to
                ensure that the Technical
                Service Center, the Field
                Automation and Information
                Management Division, and
                the Equivalence and Planning
                                                    YES          NO      Finding No. 2
                Branch coordinate efforts to
                verify that all delisted
                establishments have been
                timely entered into the
                Automated Import Information
                System.
            20. Establish a management
                control process to ensure that
                the Technical Service Center
                Director promptly forwards to
                the Office of Policy, Program
                Development, and Evaluation         YES         YES
                information about foreign
                establishments that were
                delisted prior to, or because
                of, Technical Service Center
                foreign reviews.


USDA/OIG-A/24099-04-Hy                                                         Page v
                                                   Management    Adequate        Presented
                     Phase I Report
                                                    Decision      Action             in
                    Recommendations
                                                    Reached       by FSIS       This Report
            21. Establish a management
                control process to ensure that
                delistment information is (a)
                reviewed and signed by a
                designated official to the Field
                Automation and Information            YES            NO        Finding No. 2
                Management Division, via a
                dated control number, and (b)
                processed and verified in the
                Automated Import Information
                System.
            22. Modify the Automated Import
                Information System to
                produce daily process control         YES            NO        Finding No. 4
                reports to enable verification
                of input.


           Managing Eligibility Data. FSIS’ current management information system,
           as well as the new system under development, contained weaknesses that
           raised concerns about the safety of imported products.

           •   Inaccuracies. The current information system contained inaccuracies
               about the eligibility status of foreign establishments that export product to
               the United States. This occurred partly because FSIS allowed foreign
               countries to submit eligibility information on an irregular basis rather than
               by a fixed date each year. Inaccuracies also occurred because FSIS
               had not established procedures to ensure the integrity of the data and
               had not fully implemented recommendations from our prior report.

               -    In 2001, FSIS reinspected and passed 3.4 million pounds of product
                    from five Canadian establishments whose eligibility status was
                    incorrect due to a breakdown in communications between FSIS
                    divisions. In April 2002, FSIS officials provided documentation to
                    show that two establishments with ownership changes were in fact
                    eligible. However, they did not provide documentation to support the
                    eligibility of the three remaining establishments or 36,967 pounds of
                    product from these establishments.

               -    Also in 2001, FSIS reinspected and passed 2.2 million pounds of
                    product from nine Argentine establishments at a time when
                    additional precautions were being taken with Argentine imports due
                    to foot and mouth disease. These precautions included additional
                    certifications by Argentine inspection officials or additional testing by
                    FSIS import inspection personnel. These precautions were not
                    documented for this product. In April 2002, FSIS produced
USDA/OIG-A/24099-04-Hy                                                              Page vi
                   documentation to show that about 2.1 million pounds of the product
                   was eligible to enter U.S. commerce. There was no support for the
                   remaining 139,686 pounds.

           •   Deleted Tests. Import inspectors can unilaterally request deletion of a
               particular inspection test without providing an explanation. These
               requests are usually made via email, without supervisory review, directly
               to the staff that maintains the current system. FSIS does not have
               written procedures for validating inspectors’ requests.

               Requests for changes to reinspection data showed that in some cases
               import inspectors claimed that reinspection assignments were
               inappropriate for the type of product presented. Others, however, cited
               no reason for requesting the deletions. One message, concerning
               laboratory testing, directed an inspector to “mark [the laboratory results]
               as passed” in the information system because testing on different
               product from the same establishment had already passed.

           •   Flawed System Development. Although FSIS has developed a more
               user-friendly information system, weaknesses remain in the new
               system’s design and development due to the lack of management
               oversight of the project.      For example, FSIS officials have not
               documented how they developed the new information system. In
               addition, they did not include a daily process control report in the new
               system even though the agency agreed to do so in response to our prior
               report. FSIS officials did not articulate how they would resolve the
               weaknesses we pointed out in our discussion with them in April 2002.

           Agency Authority Over Imported Product. We found that after release by the
           Animal and Plant Health Inspection Service (APHIS) and prior to the formal
           presentation to FSIS, a private party retained control of certain shipments
           that were likely to include adulterated product. Beef from Argentina,
           adulterated with metal contamination, was not promptly labeled as “U.S.
           Refused Entry” because FSIS personnel believed that they did not have
           authority to do so until the beef was formally presented for reinspection. As
           a result of our audit inquiries, this particular product was eventually
           destroyed under the supervision of FSIS personnel. This problem had
           occurred because agency procedures did not address FSIS’ authority with
           respect to this product. As a result, the Department does not have adequate
           accountability and control to ensure that potentially hazardous product does
           not enter domestic commerce.




USDA/OIG-A/24099-04-Hy                                                           Page vii
                                       FSIS needs to take the appropriate actions on
  KEY RECOMMENDATIONS                  the 823,632 pounds of product identified as
                                       coming from foreign establishments with
                                       questionable eligibility. The agency also needs
         to implement controls to ensure that the eligibility of foreign establishments
         is accurately recorded in its information system and that inspectors can rely
         on the information in the system.

            Concerning our prior report, FSIS should develop a plan to implement the
            recommendations to correct deficiencies in the import reinspection program.
            This plan should identify the overall project manager as well as the officials
            responsible for leading the implementation of each recommendation. It
            should also establish reasonable timeframes for the project as well as the
            individual tasks, and include periodic progress reports (i.e., 3, 9, and
            18 months) addressing each part of the plan. FSIS management should
            establish a mechanism that apprises them of progress.

            Overall, agency officials need to commit themselves to resolving
            weaknesses in the import reinspection process.

                                      FSIS     generally     agreed    with    the
     AGENCY RESPONSE                  recommendations outlined in the report. FSIS
                                      is continuing its efforts to enhance import
                                      operations by strengthening policies and
         controls, addressing resource issues, enhancing import training for
         inspection personnel, as well as making other systems improvements.

            FSIS stated that it had implemented the appropriate corrective actions for
            the majority of the 35 recommendations outlined in the June 2000 audit
            report regarding import reinspection. FSIS reported that final action has
            been accepted by the Office of the Chief Financial Officer on 27 of 35
            recommendations.

                                         Because FSIS no longer has records on
         OIG POSITION                    shipments presented prior to 2000, we agree
                                         that the agency is unable to take meaningful
                                         action on 602,698 pounds of the 823,632
           pounds of product we identified as coming from foreign establishments with
           questionable eligibility. However, for the remaining 220,934 pounds that
           entered commerce since that time, FSIS needs to specify the actions it
           intends to take.        During the course of our work, FSIS provided
           documentation to show that 66,299 pounds of product was ineligible to enter
           the United States. For the other 154,635 pounds of product, FSIS provided
           insufficient documentation to show that it was eligible to enter the United
           States.

USDA/OIG-A/24099-04-Hy                                                           Page viii
           In response to recommendations in this report, FSIS demonstrated a
           commitment to improving controls over the import reinspection program.
           However, as noted in our audit, FSIS did not implement the corrective
           actions the agency reported to the Office of the Chief Financial Officer for
           final action for 11 of 18 recommendations from our prior report.

           OIG continues to maintain that there are material weaknesses in FSIS’
           reinspection program because basic control activities, such as documented
           policies and procedures, supervisory reviews and approvals, and clear lines
           of authority were lacking in FSIS’ operations. Because FSIS management
           does not expect to have measures in place to correct these deficiencies until
           September 2003, FSIS should report the material management control
           weaknesses in the agency’s internal control and management accountability
           reports.




USDA/OIG-A/24099-04-Hy                                                          Page ix
                                              TABLE OF CONTENTS


EXECUTIVE SUMMARY........................................................................................................ i
  RESULTS IN BRIEF ........................................................................................................... i
  KEY RECOMMENDATIONS.......................................................................................... viii
  AGENCY RESPONSE.................................................................................................... viii
  OIG POSITION................................................................................................................ viii

INTRODUCTION ................................................................................................................... 1
  BACKGROUND................................................................................................................. 1
  OBJECTIVES..................................................................................................................... 3
  SCOPE ............................................................................................................................... 3
  METHODOLOGY............................................................................................................... 4

FINDINGS AND RECOMMENDATIONS ............................................................................. 6
CHAPTER 1........................................................................................................................... 6
FSIS MUST IMPLEMENT RECOMMENDATIONS FROM OUR PRIOR REPORT ........... 6
  FINDING NO. 1 .................................................................................................................. 6
  RECOMMENDATION NO. 1 ............................................................................................. 8
  RECOMMENDATION NO. 2 ............................................................................................. 8
CHAPTER 2......................................................................................................................... 10
FSIS NEEDS TO ADDRESS WEAKNESSES IN ITS INFORMATION SYSTEMS .......... 10
  FINDING NO. 2 ................................................................................................................ 11
  RECOMMENDATION NO. 3 ........................................................................................... 16
  RECOMMENDATION NO. 4 ........................................................................................... 17
  RECOMMENDATION NO. 5 ........................................................................................... 17
  RECOMMENDATION NO. 6 ........................................................................................... 18
  RECOMMENDATION NO. 7 ........................................................................................... 18
  FINDING NO. 3 ................................................................................................................ 19
  RECOMMENDATION NO. 8 ........................................................................................... 20
  FINDING NO. 4 ................................................................................................................ 21
  RECOMMENDATION NO. 9 ........................................................................................... 22
  RECOMMENDATION NO. 10 ......................................................................................... 23
CHAPTER 3......................................................................................................................... 24
FSIS NEEDS TO CLARIFY AGENCY AUTHORITY OVER IMPORTED PRODUCT...... 24
  FINDING NO. 5 ................................................................................................................ 24
  RECOMMENDATION NO. 11 ......................................................................................... 25

EXHIBIT A – FSIS RESPONSE TO THE DRAFT REPORT ............................................. 26




USDA/OIG-A/24099-04-Hy                                                                                                        Page x
                              INTRODUCTION

                                       The Federal Meat Inspection Act and the
        BACKGROUND                     Poultry Products Inspection Act require foreign
                                       countries that export meat and poultry products
                                       to the United States to establish and maintain
          systems that are equivalent to the U.S. inspection system. Meat and poultry
          imported into the United States must originate in countries and plants
          approved to export to the United States. FSIS is responsible for monitoring
          foreign countries and exporters to ensure the countries’ food safety systems
          are acceptable by U.S. standards and that exporters are certified as meeting
          those standards. FSIS is also responsible for reinspecting imported meat
          and poultry products at ports of entry to ensure that only safe, wholesome,
          unadulterated, and properly labeled products enter U.S. commerce.

           FSIS administers its imported meat and poultry reinspection program
           primarily through the Office of Policy, Program Development and Evaluation
           and the Office of Field Operations.

           •   The Office of Policy, Program Development and Evaluation, through the
               Import and Export Policy Section of the International Policy Staff, is
               responsible for (a) developing methods, policies, and procedures that
               inspection personnel will use when performing import reinspection
               activities, (b) maintaining liaison with other agencies within the
               Department, the U.S. Customs Service, the import and export industry,
               and foreign country representatives, (c) coordinating import policy
               development with the domestic program, and (d) providing expertise in
               dispute resolutions involving import issues.

           •   The Office of Field Operations is responsible for planning, providing
               leadership, coordinating policies, and directing the administration of
               inspection programs and activities to ensure that imported product is
               safe, wholesome, properly labeled, and unadulterated. The Office of
               Field Operations accomplishes these responsibilities primarily through its
               District Inspection Operations and 17 district offices. The district offices,
               through their circuit supervisors, are to exercise supervisory control of the
               import reinspection process performed by import inspectors at inspection
               houses within their jurisdictions. The Field Automation and Information
               Management Division within the Office of Field Operations operates,
               maintains, and supports the Automated Import Information System (the
               information system).



USDA/OIG-A/24099-04-Hy                                                              Page 1
              The Technical Service Center, also within the Office of Field Operations,
              is responsible for (a) providing technical assistance, guidance, and
              advice for import inspection personnel and the industry, (b) providing
              technical assistance and guidance in the implementation of programs,
              systems, and procedures, and (c) serving as a feedback mechanism for
              the Office of Planning, Program Development, and Evaluation relating to
              changes and refinements in existing systems and procedures.

           The reinspection of imported meat and poultry products at U.S. ports of entry
           provides FSIS with a means of assessing the effectiveness of a foreign
           government’s inspection system while ensuring that only safe, wholesome,
           unadulterated, and properly labeled products enter U.S. commerce. A
           description of each lot arriving at any of the 146 official U.S. import
           inspection establishments is entered into the information system. Lots are
           routinely reinspected for transportation damage, labeling, proper
           certification, general condition, and accurate count. Further, indepth
           reinspection is directed by FSIS’ information system, which stores
           reinspection results from all ports of entry for each country and plant. The
           system may, for example, generate residue and microbiological laboratory
           test assignments based on the compliance histories of the plants, countries,
           and products being presented for reinspection. Products that pass
           reinspection are allowed to enter U.S. commerce; products that do not pass
           are stamped “U.S. Refused Entry” and must be exported, destroyed,
           relabeled or converted to animal food within 45 days.

           During 2000, the United States imported about 3.7 billion pounds of meat
           products and about 75 million pounds of poultry products. Although
           37 countries met eligibility requirements to ship these products to the United
           States, about 3.4 billion pounds (92 percent) of these products came from
           Canada, Australia, New Zealand, Argentina, and Denmark. All shipments
           received a routine inspection, as described above. About 18 percent of the
           3.7 billion pounds presented for FSIS reinspection were also subjected to
           further examinations such as laboratory analyses, product examination,
           condition of containers, and incubation of shelf-stable containers. Less than
           1 percent of the product was rejected. Some of the reasons included
           contamination, processing defects, unsound condition, violative net weight,
           pathological or labeling defects, missing shipping marks, and residues.

           During the completion of our fieldwork, the outbreaks of foot and mouth
           disease (FMD) occurred in Europe and South America in 2001. Because
           the global prevalence of FMD posed a grave threat to the American livestock
           industry, we reviewed the Department’s controls to ensure that the Nation
           was adequately protected against the increased threat of an FMD outbreak
           from abroad. Based on our limited review, we determined the Department
           needed stringent controls to ensure that meat products entering the United

USDA/OIG-A/24099-04-Hy                                                           Page 2
           States were free of FMD. FSIS and the Animal and Plant Health Inspection
           Service (APHIS) took action to positively respond to many of the conditions
           noted in this part of our review. These results were reported in Audit Report
           No. 50601-3-Ch, Assessment of APHIS and FSIS Inspection Activities to
           Prevent the Entry of Foot and Mouth Disease Into the United States, issued
           July 23, 2001.

           During the first phase of our audit, we evaluated FSIS controls at the
           management level for ensuring that imported meat and poultry entering the
           U.S. consumer channels was safe and wholesome. Overall, we found that
           FSIS’ management control over the import inspection program needed to be
           enhanced. This included enhancement of FSIS’ documentation of approved
           foreign food safety systems. In addition, we concluded that the import
           reinspection process did not ensure that ineligible importers were properly
           identified and that recognized pathogen violations were responded to
           promptly. These results were reported in Audit Report No. 24099-03-Hy,
           Food Safety and Inspection Service Imported Meat and Poultry Inspection
           Process Phase I, issued June 21, 2000.

                                        The purpose of our review was to determine if
         OBJECTIVES                     the FSIS foreign meat and poultry reinspection
                                        process has effective procedures and controls
                                        to provide FSIS with assurance that only
          wholesome, unadulterated, and properly labeled products enter U.S.
          commerce. We also followed up to determine the extent to which FSIS
          implemented recommendations from our June 2000 audit report. In
          addition, we evaluated the applicable performance measures and controls
          governing the validity of data FSIS reported in the Government Performance
          and Results Act annual plan.

                                      To determine if the FSIS reinspection process
             SCOPE                    has effective procedures and controls, we
                                      focused our review on operations and statistical
                                      information for 2000 and 2001 and included
           information from 1999 and 2002 as deemed necessary.

           We performed work at:

           •   FSIS Headquarters in Washington, D.C.;
           •   FSIS’ Technical Service Center in Omaha, Nebraska;
           •   FSIS District Offices in Beltsville, Maryland and Albany, New York; and
           •   FSIS import inspection houses in Dundalk, Maryland; Jessup, Maryland;
               Elizabeth, New Jersey; Woodstown, New Jersey; Mullica Hills, New
               Jersey; and Buffalo, New York. We also toured an import inspection
               house in Wilmington, Delaware.

USDA/OIG-A/24099-04-Hy                                                          Page 3
           We judgmentally selected the import inspection houses to visit based, for the
           most part, on the volume of products presented for FSIS reinspection by a
           variety of countries during 1999. Using a download of data from FSIS’
           information system, we analyzed information on shipments presented for
           reinspection from January 1, 1999 to March 9, 2001.

           Our work was initiated in August 2000 and was conducted in accordance
           with generally accepted Government auditing standards.

                                       To fulfill our objectives, we discussed current
       METHODOLOGY                     operations with FSIS staff and reviewed
                                       supporting       documentation.     At    FSIS
                                       Headquarters, we concentrated on the
         responsibilities of the Office of Policy, Program Development, and
         Evaluation; the Office of Field Operations; and the Office of Management’s
         Internal Control Staff. Our review included analysis of records and other
         documents and discussions with responsible officials to determine if agency
         responsibilities are being carried out as intended by regulation.

           At the Office of Field Operations’ Field Automation and Information
           Management Division, we familiarized ourselves with the current information
           system and this Division’s responsibilities for maintaining it. We also
           familiarized ourselves with the new information system that FSIS began
           implementing in April 2002.

           At the Technical Service Center, we held discussions with the staff
           responsible for providing technical assistance, advice, and guidance to
           brokers, district personnel, circuit supervisors, and import inspectors. We
           focused particular attention, during these discussions and related
           documentation reviews, on the range of activities associated with the FSIS
           imported meat and poultry reinspection process.

           At the import inspection houses, we became familiar with the responsibilities
           of import inspectors and the oversight role of the circuit supervisor and other
           district personnel. We also examined the supporting documentation for a
           judgmental sample of 284 shipments. In total, these inspection houses
           typically process about 11,000 shipments per year. The size of our sample
           at each inspection house was based on (a) the quantity and variety of
           products reinspected, (b) the type, timing, and results of reinspections
           performed, and (c) other circumstances that affected specific shipments
           reinspected at the individual inspection house. At the inspection houses
           visited, we also examined all 676 shipments (that arrived up to the time of
           our visit) from foreign countries that were affected by Bovine Spongiform
           Encephalopathy (commonly referred to as “mad cow” disease) and Foot and
           Mouth Disease in 2001. This examination was performed to determine

USDA/OIG-A/24099-04-Hy                                                            Page 4
           whether these shipments were eligible to enter the United States according
           to Department requirements.




USDA/OIG-A/24099-04-Hy                                                        Page 5
           FINDINGS AND RECOMMENDATIONS


                      FSIS MUST IMPLEMENT RECOMMENDATIONS
 CHAPTER 1
                              FROM OUR PRIOR REPORT

                                       FSIS did not complete the indepth assessment
        FINDING NO. 1                  of its import inspection operations or improve its
                                       management oversight even though the agency
                                       agreed to take these actions in response to
           recommendations in our June 2000 audit report. The inaction occurred
           because no one was held accountable for implementing these
           recommendations and no mechanism was established to alert top FSIS
           management officials that this work was not being done. Without effective
           oversight and control, FSIS reduces its ability to ensure the safety and
           wholesomeness of imported products entering the United States.

           Recommendations we made in our June 2000 audit report were aimed at
           improving controls over the reinspection portion of FSIS’ import inspection
           operations. Strengthening these controls would also enhance the validity of
           data that FSIS reports in the Government Performance and Results Act
           annual plan. During discussions in April 2002, FSIS officials acknowledged
           the need to ensure their import reinspection process was being effectively
           supervised and managed.

           •   Indepth Assessment. In response to our prior recommendation, FSIS
               documented an assessment of the equivalence portion of import
               inspection operations that included the management controls for major
               functions (e.g., equivalence determinations and onsite audits). However,
               no similar assessment was performed for the reinspection portion of the
               operations. This assessment would have provided the agency with the
               opportunity to ensure the effectiveness of its operations and to address
               other material weaknesses.

           •   Management Oversight Functions. FSIS did not prepare a summary of
               its management oversight functions and procedures even though the
               agency agreed to do so. FSIS officials claimed that reinspection
               activities were controlled through a multi-tiered supervisory and
               management oversight structure. Further, they stated that they relied on
               the district offices to ensure reinspection activities were well managed
               and properly functioning. Through discussions with district officials, we


USDA/OIG-A/24099-04-Hy                                                           Page 6
               learned that district office oversight was minimal, which we confirmed at
               the import inspector level. Circuit supervisors were not always fully
               engaged in their oversight responsibilities for import reinspection
               operations.

           •   Management Control Training. FSIS did not provide management
               control training to all its managers responsible for the reinspection
               process, as it agreed to do. This training would have given agency
               managers tools for enhancing their oversight capabilities.

           •   Independent Assessments.         FSIS did not conduct independent
               assessments of reinspection activities.       In response to our prior
               recommendation, FSIS’ Executive Steering Committee for Management
               Controls was charged with identifying and prioritizing selected processes
               for independent assessment. Members of this committee include FSIS
               management officials (e.g., Associate Administrator and Associate
               Deputy Administrators). By September 1, 2000, the committee was to
               provide guidance on the assessments to be performed. This guidance
               was not prepared until September 2001. The initial focus was to assist
               agency managers who requested assessments and to review programs
               that changed during the 1997 reorganization. The guidance also
               requested quarterly status reports of progress. We found that no reviews
               had been scheduled or performed and that no status reports had been
               provided to the Committee.

           •   Entry of Test Results into the Information System. In response to      our
               prior recommendations, FSIS agreed to institute procedures              to
               streamline the entry of residue and microbial test results into        the
               information system. FSIS established these procedures, but did         not
               document them. Further, no supervisory reviews were conducted.

           The implementation of these recommendations would have provided FSIS a
           means to identify weaknesses disclosed as part of our current review. The
           lack of effective FSIS management control and oversight of reinspection
           operations is the underlying reason for the conditions highlighted below.

           •   Over 7.7 million pounds of product entered U.S. commerce from
               establishments whose eligibility status recorded in the information
               system was contradicted by documentation in FSIS’ files (see
               Finding No. 2).

           •   Reinspection data in the current information system is questionable
               because import inspectors can unilaterally request deletion of a particular
               inspection assignment without providing an explanation (see
               Finding No. 3).

USDA/OIG-A/24099-04-Hy                                                            Page 7
           •   FSIS personnel have not addressed weaknesses in the new information
               system, which will lead to questions about the integrity of this system and
               its data (see Finding No. 4).

           As we reported in our June 2000 audit report, the material weaknesses in
           FSIS’ import inspection process should be included in the agency’s annual
           management control report required by the Federal Manager’s Financial
           Integrity Act. FSIS has not yet agreed to do this.

           Prior to FSIS’ reorganization in 1997, the import inspection process operated
           more effectively because it was managed by one office, FSIS’ International
           Programs. The reorganization scattered the import inspection process
           among different offices (e.g., field operations; policy, program development,
           and evaluation; public health and science; and management) and diffused
           the operations among a number of districts. For import inspection
           operations to succeed under this structure, FSIS needed to implement and
           maintain an effective system of management control. This has not occurred.

           We concluded that FSIS management must implement a proactive plan for
           addressing weaknesses in its system. The plan should prioritize tasks to be
           performed, identify responsible parties for overseeing and completing the
           tasks, and establish timeframes for completing the work. There should also
           be a mechanism for periodically apprising FSIS management of progress.

                                        Immediately assign responsibility for conducting
  RECOMMENDATION NO. 1                  an indepth assessment of the reinspection
                                        portion of import inspection operations.

           FSIS Response

           FSIS accepts this recommendation. The Acting Assistant Administrator,
           Office of Program Evaluation, Enforcement and Review, has been assigned
           responsibility for assuring that an indepth assessment is conducted of the
           reinspection portion of import inspection operations. As indicated in
           response to Recommendation No. 2, the indepth assessment will be
           completed by December 2003.

           OIG Position

           We accept FSIS’ management decision.

                                        Develop and implement a plan to address the
  RECOMMENDATION NO. 2                  weaknesses in the reinspection process that
                                        were identified by the indepth assessment and
                                        our prior recommendations. This plan should

USDA/OIG-A/24099-04-Hy                                                            Page 8
           identify the overall project manager plus the officials responsible for leading
           the implementation of each part of the plan, establish reasonable timeframes
           for completing the project as well as the individual tasks, and include
           periodic progress reports (i.e., 3, 9, and 18 months) addressing each part of
           the plan. FSIS management should establish a mechanism that apprises
           them of progress.

           FSIS Response

           FSIS accepts this recommendation. By December 2003, FSIS will complete
           the indepth reassessment identified in Recommendation No. 1 and will
           implement a plan to address any weaknesses in the reinspection process
           that are identified by the reassessment. The plan will designate an overall
           project manager, identify specific tasks and task managers, outline a
           schedule for completion of tasks, and include requirements for status
           reports.

           OIG Position

           To reach management decision, FSIS needs to designate the timeframe in
           which it expects to implement the plan to address weaknesses in the
           reinspection process.




USDA/OIG-A/24099-04-Hy                                                            Page 9
                     FSIS NEEDS TO ADDRESS WEAKNESSES IN ITS
 CHAPTER 2
                              INFORMATION SYSTEMS

           All shipments entering the United States and presented for reinspection
           receive a routine inspection for shipping marks, general shipment condition,
           product count, and paperwork accuracy. FSIS inspection personnel use the
           current information system to obtain reinspection assignments for these
           shipments. These assignments are based on sampling plans as well as
           product and establishment history.

           The current information system tells inspectors when an establishment is
           eligible to import product into the United States and when it is delisted. If an
           establishment is ineligible to import product, the information system will not
           allow the inspector to obtain an assignment for any of the establishment’s
           product. If, however, the establishment produced product before becoming
           ineligible, that product may be processed into U.S. commerce. In such a
           case, FSIS provides temporary access to the system so the import inspector
           may obtain an assignment.

           We found that FSIS needed to address two material weaknesses in the
           current system:

           •   The system contained inaccurate certification and delistment information.
               Furthermore, for shipments from delisted establishments, there was no
               tracking data to verify that assignments obtained through temporary
               access to the system were warranted.

           •   Changes could be made to information in the system without any
               explanation or review. Supervisors did not validate the reasonableness
               of inspectors’ requests to delete inspection assignments.

           These deficiencies in the current information system raised questions about
           the effectiveness of the import reinspection process. Our audit showed that
           during the 27-month period we reviewed, over 7.7 million pounds of product
           entered U.S. commerce from 37 establishments whose eligibility status as
           recorded in the information system was contradicted by documentation in
           FSIS’ files.

           FSIS has developed a more user-friendly information system, but
           weaknesses remain in the new system’s design and development due to the
           lack of management oversight of the project. As a result, FSIS has no
           assurance that the new system will improve program operations as
           intended.

USDA/OIG-A/24099-04-Hy                                                            Page 10
                                        The current information system contained
         FINDING NO. 2                  inaccuracies about the eligibility status of
                                        foreign establishments and the products they
FSIS NEEDS TO ENSURE THAT THE exported to the United States. This occurred
 ELIGIBILITY STATUS OF FOREIGN          because FSIS was allowing foreign countries to
       ESTABLISHMENTS IS                submit eligibility information on an irregular
 ACCURATELY RECORDED IN THE             basis rather than by a fixed date each year.
 CURRENT INFORMATION SYSTEM             Further, FSIS neither established sufficient
                                        procedures to ensure the integrity of the data in
                                        the information system nor fully implemented
            recommendations from our prior report. Consequently, FSIS had reduced
            assurance that only eligible product from eligible establishments entered
            U.S. commerce.

             We briefed FSIS management officials on the results of our work in
             March 2002. Our audit tests identified that over 7.7 million pounds of
             product entered U.S. commerce between January 1999 and March 2001
             from 37 establishments whose eligibility status as recorded in the
             information system was contradicted by documentation in FSIS’ files. The
             documentation included foreign countries’ certifications, as well as FSIS’
             records and verifications of establishment eligibility. Some of these
             37 establishments were located in Argentina, Uruguay, the United Kingdom,
             and Italy, countries that had outbreaks of foot and mouth disease in 2001.
             FSIS officials worked with us to examine detail information regarding each of
             the shipments comprising the over 7.7 million pounds of product. In April
             and May 2002, FSIS provided evidence to support that all but 823,632
             pounds of the 7.7 million pounds of product had been eligible to enter U.S.
             commerce. The documentation also showed that of the 823,632 pounds of
             product, 66,299 pounds were shipped by ineligible foreign establishments.
             FSIS provided either insufficient documentation or no documentation for the
             remaining 757,333 pounds; consequently, we could not determine what its
             status should have been.          FSIS personnel claimed that shipment
             documentation prior to 2000 was no longer available at their import
             inspection houses, which related to 602,698 pounds of the 757,333 pounds
             of product identified. FSIS needs to take the appropriate actions on the
             823,632 pounds of product.

             The information system did not provide inspectors with an accurate record of
             the eligibility status of foreign establishments in three situations: (1) when a
             country did not submit its annual certifications of establishments in a timely
             manner, (2) when an establishment produced product before becoming
             ineligible, and (3) when an establishment became delisted.




USDA/OIG-A/24099-04-Hy                                                              Page 11
                       (1) Annual Certifications

                             We compared the foreign establishment eligibility status recorded in the
                             information system with the foreign countries’ annual certifications for
                             2000 and 2001 that were on file with FSIS. We identified five Canadian
                             establishments whose eligibility status in the information system was not
                             supported by the annual certification. Using data recorded in the
                             information system, we found that two of the establishments exported
                             3.4 million pounds of product to the United States.

                             In April 2002, we brought this to the attention of agency officials who
                             then provided documentation to support that these establishments and
                             their products were eligible to enter the United States. Due to a
                             breakdown in communications between divisions within FSIS, the
                             information system did not have accurate information on the eligibility
                             status of these two establishments. Using data recorded in the
                             information system, we identified that 36,967 pounds of product entered
                             U.S. commerce from the remaining three establishments. We also
                             brought this to the attention of agency officials in April 2002; however,
                             they did not provide documentation to support the eligibility of these
                             establishments or this product.

                             Our further comparison with the annual certifications identified another
                             113 establishments whose eligibility status in the information system
                             differed from the data reported on the annual certification. This occurred
                             because FSIS did not hold countries accountable for submitting their
                             annual certifications according to the annual due dates. Even though no
                             product was imported from these 113 establishments, it demonstrates
                             the extent to which the accuracy of the information system depends on
                             timely annual certifications.

                             Regulations1 state that only those establishments certified by foreign
                             meat inspection officials as meeting U.S. requirements are eligible to
                             import product into the United States. According to FSIS procedure,
                             dated May 2001, countries are to provide their annual lists of eligible
                             establishments by a deadline, which has generally been January 15.
                             FSIS personnel reconcile these lists to the information system to ensure
                             the system includes only eligible establishments. After discussion of this
                             requirement with FSIS officials in April 2002, they provided a revised
                             procedure. According to this revised procedure, dated April 3, 2002, no
                             deadline is set for countries to provide their annual lists of eligible
                             establishments. Since the listings are used to ensure that data in the
                             information system is accurate, FSIS should hold countries accountable
                             for submitting the listings by a certain date each year.
1
    Title 9 CFR, Part 327.2 (a) (3), dated January 1, 2001.

USDA/OIG-A/24099-04-Hy                                                                        Page 12
                             FSIS officials stated that they have recognized that foreign countries do
                             not timely provide establishment eligibility information to FSIS and that
                             the annual certifications are often the only means used by foreign
                             countries to communicate information about delisted establishments. To
                             address this, FSIS officials plan to reiterate to foreign countries the need
                             to timely provide information about changes in the eligibility status of
                             establishments exporting product into the United States.

                             Although FSIS recognized a problem with its annual certifications, its
                             actions to address the problem do not resolve the matter. In a cable
                             sent to countries on November 30, 2001, for the 2002 annual
                             certifications, FSIS officials requested that countries submit their list by
                             March 1, 2002. In a followup email, dated February 14, 2002, FSIS
                             officials again requested that countries provide the 2002 certifications by
                             March 1, 2002. This email also requested that countries “provide the
                             date of delistment for any establishments that were eligible to export to
                             the United States for calendar year 2001, but will not be eligible to
                             export to the United States as of January 1, 2002.” This 2-month
                             timeframe for providing information would potentially allow product to be
                             reinspected and passed into U.S. commerce from ineligible
                             establishments. Until effective controls are in place, FSIS should
                             continue to receive annual certifications from countries of their eligible
                             establishments. Countries should be held accountable for submitting
                             this information by the same date each year.

                       (2) Temporary Access (Open Windows)

                             In reconciling the annual certifications with data in the information
                             system, we noted that in cases where the information system indicated
                             that establishments were not eligible, inspectors requested temporary
                             access to the information system so they could reinspect products from
                             these establishments. There was no documentation on file to show that
                             the establishments in question had in fact lost their eligibility.

                             Regulations2 state that the information system will be used to assign
                             reinspection procedures based on sampling plans as well as the product
                             and establishment history. When a foreign establishment is not eligible
                             to export product to the United States, its eligibility status is changed in
                             the information system to prevent import inspectors from being able to
                             pull a reinspection assignment. This is FSIS’ control to ensure that
                             product from an ineligible establishment is not inadvertently reinspected
                             and passed into U.S. commerce. However, if an establishment’s
                             product was produced prior to when the establishment lost its eligibility,
                             the product may still be eligible. Personnel within FSIS’ information
2
    Title 9 CFR, Part 327.6 (a) (3), dated January 1, 2001.

USDA/OIG-A/24099-04-Hy                                                                          Page 13
              management division change the establishment’s status for a short
              period of time within the information system to allow the import inspector
              to reinspect the shipment. Giving the import inspector this temporary
              access to pull a reinspection assignment is called “opening a window.”
              After an appropriate period, FSIS information management personnel
              must once again close the window to prevent inspectors from
              inadvertently reinspecting shipments that were produced after the
              establishment became ineligible.

              Because there are no procedures for approving and tracking the open
              window access to the system, the eligibility of the product passed by this
              means is indeterminable.        We found that the documentation of
              temporary access to the information system was unreliable. In the
              cases we encountered in which windows may or may not have been
              properly opened, we found that FSIS personnel reinspected and passed
              into U.S. commerce over 3 million pounds of product from 19 foreign
              establishments located in 4 countries with unclear eligibility. Using data
              recorded in FSIS’ information system through February 16, 2001, we
              identified the product whose eligibility was uncertain.

                                   Number of
                                  Questionable Pounds of Product with        Type of
                     Country     Establishments Questionable Eligibility     Product
                Argentina               9                    2,192,306     Beef
                Uruguay                 8                      741,195     Beef
                United Kingdom          1                       89,654     Fresh Pork
                Italy                   1                            71    Pork
                Total                  19                    3,023,226

              In April 2002, FSIS officials provided documentation to show these
              establishments exported their product to the United States at a time
              when they were eligible (except for the 139,686 pounds from one
              Argentine establishment).     However, FSIS must establish and
              implement controls to approve, track, resolve, record, and monitor open
              window requests by inspection personnel.

              The 19 establishments were located in 4 countries that had outbreaks of
              foot and mouth disease in 2001. The product from Argentina and Italy
              entered U.S. commerce prior to the time trade with these countries was
              prohibited due to foot and mouth disease. FSIS also provided
              documentation that the product from Uruguay and the United Kingdom
              was produced prior to dates of foot and mouth disease prohibitions for
              these countries.




USDA/OIG-A/24099-04-Hy                                                            Page 14
           (3) Delistment

               In response to our prior recommendation, FSIS agreed to coordinate the
               efforts of agency personnel to verify that all delisted establishments
               have been timely entered into the information system. However, on
               January 26, 2000, Canadian officials informed FSIS personnel that 84 of
               its establishments were not eligible to export products to the United
               States because the establishments failed to meet FSIS product safety
               requirements. This information was not entered into the information
               system until December 14, 2000, nearly 11 months later. This occurred
               because the information had not been shared with personnel who are
               charged with updating the information system.

               Using data in the information system, we identified 642,399 pounds of
               mainly poultry products that were reinspected and passed into U.S.
               commerce during the 11-month period from 11 of the 84 ineligible
               establishments.     During May 2002, FSIS personnel provided
               certifications from Canadian officials that supported the eligibility of
               629,583 of these pounds. These certifications were not on file with
               personnel responsible for updating the information system when we did
               our review in March 2001. Furthermore, evidence provided by FSIS
               personnel was not sufficient to resolve whether the remaining
               12,816 pounds was eligible to enter U.S. commerce.

           In response to our June 2000 audit report, FSIS committed to certain
           corrective actions.       However, the agency neither ensured that
           establishments met annual certification requirements nor established a
           system for tracking delistments.         Our prior report included eight
           recommendations to address these weaknesses. FSIS took adequate
           action to address two of these recommendations; however, the agency’s
           actions were insufficient on the remaining six.

           In response to one prior recommendation, FSIS implemented a procedure
           (i.e., quarterly crosschecks) to validate the accuracy of foreign establishment
           eligibility status in the information system. We noted that while completing
           the quarterly crosscheck in May 2000, FSIS personnel identified ineligible
           product that had already passed into U.S. commerce, but it did not take
           steps to recall the product. FSIS identified 634,163 pounds of product
           (lamb, goat, and mutton) that had been exported by two ineligible Australian
           establishments. One of these establishments had been ineligible since
           September 1998, and the other since August 1999. During May 2000, when
           these errors were discovered, FSIS personnel corrected the information
           system but did not perform any followup work regarding these shipments.
           FSIS personnel claimed that shipment documentation prior to 2000 was no
           longer available at their import inspection houses. Shipments prior to 2000

USDA/OIG-A/24099-04-Hy                                                           Page 15
           accounted for 602,698 pounds of the product identified. Regarding the
           remaining 31,465 pounds, FSIS provided documentation that verified that
           21,337 pounds entered U.S. commerce from an ineligible establishment.
           FSIS could not find the documentation for the remaining 10,128 pounds.

           We concluded from our current review that inaccuracies in the information
           system needed to be addressed. Even though FSIS was able to
           subsequently support the eligibility of most of the 7.7 million pounds of
           products we questioned, the agency still needs to implement controls to
           ensure that accurate information is recorded in the system regarding the
           eligibility of foreign establishments and the products they export to the
           United States.

                                        Take the appropriate actions on the 823,632
  RECOMMENDATION NO. 3                  pounds of product identified as coming from
                                        foreign establishments with questionable
                                        eligibility.

           FSIS Response

           FSIS agrees with the intent of this recommendation, which is to strengthen
           the reliability of establishment eligibility data in the Automated Import
           Information System (AIIS). However, FSIS no longer has records on
           shipments presented prior to the year 2000 because Agency recordkeeping
           procedures require documents to be kept only for the current year plus two
           previous years. Consequently, additional action on the 823,632 pounds of
           product that entered commerce between January 1999 and March 2001, is
           neither necessary nor feasible at this time.

           At the time this product was presented for reinspection, it was accompanied
           by a certificate from a foreign inspection official attesting that it was
           produced in an establishment certified for export to the United States. All of
           the 823,632 pounds in question was subsequently reinspected by an FSIS
           import inspector and passed for entry into U.S. commerce. FSIS also notes
           that the OIG identified other shipments totaling over 7.7 million pounds,
           which were described as coming from establishments with questionable
           eligibility. However, FSIS has provided the OIG documentation showing that
           virtually all of the 7.7 million pounds were eligible for export to the United
           States.

           OIG Position

           Review of the data from FSIS’ information system disclosed 602,698 pounds
           of this product was imported into the United States prior to 2000. FSIS no



USDA/OIG-A/24099-04-Hy                                                          Page 16
           longer maintains records for these shipments. Accordingly we accept FSIS’
           management decision to take no action regarding this product.

           FSIS reinspected and passed the remaining 220,934 pounds of product into
           U.S. commerce in 2000 and 2001. During the course of our work, FSIS
           provided documentation to show that 66,299 pounds of this product was
           ineligible to enter the United States. To reach management decision, FSIS
           needs to specify the actions it intends to take for the product that was
           determined to be ineligible.

           During the course of our work, FSIS provided insufficient documentation to
           show that the other 154,635 pounds of product was eligible to enter the
           United States. To reach management decision, FSIS needs to specify the
           actions it intends to take for this product.

                                   Revise FSIS procedures to establish a certain
  RECOMMENDATION NO. 4             date each calendar year to be the deadline for
                                   receiving foreign countries’ annual lists of
                                   eligible establishments.   These procedures
       should also specify the actions to take when annual certifications are not
       received timely by FSIS.

           FSIS Response

           FSIS accepts this recommendation. FSIS has completed and implemented
           new procedures for receiving foreign country establishment recertification
           lists including actions to be taken when annual certifications are not
           received. These procedures are enclosed.

           OIG Position

           To reach management decision, FSIS needs to specify that the steps for the
           calendar year 2003 recertification of establishments will be applicable to
           future years.

                                   Document and implement procedures for
  RECOMMENDATION NO. 5             approving, tracking, resolving, and recording
                                   open windows. The procedures should also
                                   address how supervisory personnel, both in the
       field and in the information management division, should monitor these
       requests.




USDA/OIG-A/24099-04-Hy                                                      Page 17
            FSIS Response

            This recommendation is no longer applicable. The new AIIS does not permit
            “Open Windows” to allow entry of product for delisted plants or countries.

            OIG Position

            To reach management decision we need additional information about the
            alternative processes FSIS will use to replace the “open window” process.

            Please provide details about how the agency will handle the following
            situation, under the new AIIS, to include the related management controls.
            Foreign establishment A is delisted for product produced on or after
            June 1, 2003. On June 15, 2003, product from foreign establishment A is
            presented at a U.S. port of entry for reinspection by FSIS. The product is
            accompanied by a foreign health certificate dated May 25, 2003. The health
            certificate shows that the product was produced in establishment A from
            May 20-22, 2003, a point in time when product from this establishment was
            eligible for export to the United States.

                                     Validate the completeness and accuracy of
  RECOMMENDATION NO. 6               open window request information received by
                                     the information management division since
                                     January 1, 2001, to ensure that no product from
       ineligible foreign establishments entered U.S. commerce.              Initiate
       appropriate actions for any ineligible product identified.

            FSIS Response

            By September 2003, FSIS will validate the completeness and accuracy of
            open window request information received by the Field Automation
            Information Management Division (FAIM) from January 1, 2001 to
            December 31, 2002.

            OIG Position

            We accept FSIS’ management decision.

                                     Establish     procedures    for   resolving
  RECOMMENDATION NO. 7               discrepancies    resulting from   quarterly
                                     crosschecks.      These procedures should
                                     establish a process for taking appropriate
       actions regarding ineligible product.




USDA/OIG-A/24099-04-Hy                                                       Page 18
                       FSIS Response

                       FSIS will establish procedures that provide guidance for supervisory
                       personnel for monitoring the AIIS, including resolving discrepancies resulting
                       from quarterly crosschecks. These procedures will include a process for
                       taking appropriate action regarding ineligible product. The new procedures
                       will be developed by September 2003.

                       OIG Position

                       We accept FSIS’ management decision.

                                              Import inspectors can unilaterally request
            FINDING NO. 3                     deletion of a particular inspection assignment
                                              from the information system without providing
    FSIS NEEDS OVERSIGHT OF DATA              an explanation. These requests are usually
     ENTERED IN THE INFORMATION               made via email, without supervisory review,
         MANAGEMENT SYSTEM                    directly to the staff that maintains the system.
                                              FSIS does not have written procedures for
                                              validating inspectors’ requests. As a result, the
               integrity of reinspection data in the information system is questionable.

                       Regulations3 state that the information system will be used to assign
                       reinspection procedures based on sampling plans as well as product and
                       establishment history. During 2000, only 18 percent (about 688 million
                       pounds) of shipments were selected by the information system for detailed
                       reinspection, underscoring the importance of completing all tests and
                       accurately reporting the results. The percentage of the amount of product
                       that received detailed reinspection in 2000 was consistent with the
                       percentage of product that received detailed reinspection in 1998 and 1999.

                       Our review found that import inspectors did not always perform all of the
                       inspections assigned and that reinspection assignments remained
                       incomplete for as long as two years in the information system. Supervisory
                       personnel did not followup to determine why the assignments were not done
                       nor did they review to validate the reasonableness of inspectors’ requests to
                       delete assignments. We reviewed over 1,000 emails from import inspectors
                       in 12 of FSIS’ 17 districts. Information management staff used these emails
                       as the basis for deleting reinspection assignments.

                       •    Inspectors requested laboratory tests be deleted because overnight
                            shipping services were not available or the samples would not reach
                            laboratories for testing before Federal holidays. In one case, the
                            inspector requested that inspection assignments for listeria and
3
    Title 9 CFR, Part 327.6 (a) (3), dated January 1, 2001.

USDA/OIG-A/24099-04-Hy                                                                      Page 19
                salmonella be deleted “since we do not have shipping cartons large
                enough to fit an intact sample unit which is required for this type of
                analysis.”

            •   Inspectors claimed that test assignments were inappropriate for the type
                of product presented for reinspection. For example, messages stated
                that tests could not be performed because the product did not have
                enough fat, muscle, or target tissue. However, other inspectors stated
                that they submitted samples for testing regardless of designated sample
                sizes.

            •   Other messages cited no reason for deleting inspection assignments
                such as testing for species, listeria, salmonella, arsenic, and other
                unidentified residues.

            •   In one case, the inspector stated, “only one piece was examined
                because it was fresh duck liver from France and very expensive.” One
                message directed another inspector to “mark it (the laboratory results) as
                passed” in the information system because testing on different product
                from the same establishment had “passed.”

            To ensure the integrity of reinspection data in the information system, FSIS
            needs to implement effective oversight procedures.

                                    Establish and implement procedures for FSIS
  RECOMMENDATION NO. 8              officials at all appropriate levels to validate
                                    inspector requests for modifying reinspection
                                    assignments directed by the information system
       and to ensure that all assignments are timely and completely resolved.

            FSIS Response

            FSIS agrees with this recommendation. FSIS will develop procedures that
            provide guidance for supervisory personnel for monitoring the AIIS, including
            requests for modification of entries. Justification for modifying a reinspection
            assignment is limited to correcting incorrect data input. The new procedures
            will be developed by September 2003.

            OIG Position

            We accept FSIS’ management decision.




USDA/OIG-A/24099-04-Hy                                                             Page 20
                                                             FSIS has developed a more user-friendly
                  FINDING NO. 4                              information system. However, due to the lack
                                                             of management oversight of the project,
         FSIS NEEDS TO ADDRESS                               weaknesses remain. For example, the agency
         WEAKNESSES IN THE NEW                               has not documented how the new system was
          INFORMATION SYSTEM                                 developed. As a result, FSIS had reduced
                                                             assurance that the new system will improve
                                                             program operations as intended.

                       Regulations4 state that the information system will be used to assign
                       reinspection procedures based on sampling plans as well as product and
                       establishment history. FSIS officials recognized the need to modernize the
                       information system because of the dramatic change in technology since the
                       system was brought online in 1978. FSIS officials expect that migrating the
                       system onto current hardware and software will increase the system’s
                       efficiency and effectiveness while decreasing the cost of ownership.

                       During a demonstration of the new information system in January 2002, we
                       observed that the system would be more user friendly because, for example,
                       it uses a series of drop-down menus and allows inspectors to review test
                       results online. However, the integrity of the new information system and its
                       data is questionable given the lack of management oversight and
                       involvement in the system design and development. According to FSIS
                       officials, oversight of the development of the new information system did not
                       track such things as project cost or whether the work was on schedule.
                       Before full implementation of the new system, FSIS should evaluate and test
                       that it will operate as intended and adequately address shortcomings of the
                       prior system. In our discussion with FSIS officials in April 2002, they did not
                       articulate how they would resolve weaknesses in the new system pointed
                       out by the questions we raised. The following items, which we discussed
                       with FSIS officials, indicate the need for better management oversight and
                       control of this project.

                       •    FSIS officials have not documented how they developed the new
                            information system. This is critical for understanding the agency’s
                            approach and methodology for planning, designing, and evaluating the
                            new system.

                       •    FSIS officials have not clearly communicated the information to be used
                            to support entries in the “production date” field. Further, this field in the
                            system has been programmed to default to the current date if no
                            information is entered. The entry in this field is critical to determining
                            whether product from foreign establishments is eligible to enter U.S.
                            commerce.
4
    Title 9 CFR, Part 327.6(a) (3), dated January 1, 2001.

USDA/OIG-A/24099-04-Hy                                                                           Page 21
           •   FSIS officials have not formally notified foreign countries or the
               companies that import products from foreign establishments that the new
               information system relies on process categories, rather than product
               codes, to identify and describe the product being reinspected by import
               inspectors. This is a major change in the coding of information in the
               new system. The current system uses over 365 product codes to identify
               product; whereas, the new system will use only 8 process categories. In
               discussions during April 2002, FSIS officials stated that this was
               communicated in the agency’s June 2001 public meeting on the new
               information system. The meeting’s official transcript only supported that
               the use of process categories was an idea under consideration.

           •   FSIS officials have not programmed edit checks in the new system to
               test the reasonableness of data entered. For example, in the current
               system an ad hoc analysis is done to check that excessive shipment
               weights are not entered into the system. The new information system is
               not programmed to perform a similar type of check.

           •   FSIS officials did not include a daily process control report in the new
               information system even though the agency agreed to do so in response
               to our June 2000 audit report. This report would enable FSIS first-line
               supervisory personnel to timely verify the accuracy of information entered
               into the system. The examples of management control reports provided
               by FSIS personnel in April 2002 represent different ways of monitoring
               the system but do not provide a means of verifying the accuracy of
               information entered into the system.

           To increase the effectiveness and capability of the new information system,
           FSIS management needs to evaluate and test that the new system will
           operate as intended and adequately address shortcomings of the prior
           system before the new system is implemented.

                                        Document the development of the new
  RECOMMENDATION NO. 9                  information system, which should include FSIS’
                                        approach and methodology for planning,
                                        designing, and evaluating the system.

           FSIS Response

           By September 2003, FSIS will document the development of the new
           information system, including the approach and methodology for planning,
           designing, and evaluating the system.




USDA/OIG-A/24099-04-Hy                                                          Page 22
           OIG Position

           We accept FSIS’ management decision.

                                   Develop and implement a plan to evaluate and
 RECOMMENDATION NO. 10             test the new system. This plan should identify
                                   the officials responsible for leading the
                                   implementation of this plan, establish
       reasonable timeframes for the project as well as the individual tasks to be
       performed to evaluate and test the design and development of the new
       system. The plan should also include periodic progress reports (i.e., 1, 3,
       and 5 months) addressing each part of the plan. FSIS management should
       establish a mechanism that apprises them of progress.

           FSIS Response

           By September 2003, FSIS will develop and implement a plan to evaluate
           and test the new system including assignment of responsibilities for planning
           and leading the implementation as well as for appropriate management
           oversight.

           OIG Position

           We accept FSIS’ management decision.




USDA/OIG-A/24099-04-Hy                                                         Page 23
                                     FSIS NEEDS TO CLARIFY AGENCY AUTHORITY
     CHAPTER 3
                                             OVER IMPORTED PRODUCT

                                                After release by the Animal and Plant Health
                 FINDING NO. 5                  Inspection Service (APHIS) and prior to the
                                                formal presentation to FSIS, a private party
                                                retained control of certain shipments that were
                    likely to include adulterated product. This occurred because agency
                    procedures did not clearly explain FSIS’ authority with respect to this
                    product. As a result, the Department does not have adequate accountability
                    and control to ensure that potentially hazardous product does not enter
                    domestic commerce.

                      All shipments of meat and meat products arriving at a U.S. port of entry are
                      subject to oversight by several Federal agencies (e.g., the U.S. Customs
                      Service, APHIS, and FSIS). Based on animal disease restrictions in the
                      country of origin, APHIS determines whether the shipment can be released
                      into the United States. Once APHIS requirements have been met, FSIS has
                      regulatory authority5 for product in each shipment. However, in some cases
                      the handoff is not direct from APHIS to FSIS; instead, the meat or meat
                      product is released to a private party6 who then is responsible for presenting
                      the product to FSIS for reinspection and approval to enter domestic
                      commerce. The “gap” between APHIS acceptance and presentation to
                      FSIS for reinspection imposes a limitation on the Department’s
                      accountability for the product.

                      Our audit identified a situation where beef from Argentina, adulterated with
                      metal contamination, was not promptly labeled as “U.S. Refused Entry”
                      because FSIS personnel believed that they did not have authority to do so
                      until the beef was formally presented for reinspection. As a result of our
                      audit inquiries, this particular product was eventually destroyed under the
                      supervision of FSIS personnel.

                      Although Federal regulations confer responsibility for product on FSIS once
                      it has cleared APHIS, we found that FSIS operating policies and procedures
                      did not address this at all. The widespread lack of understanding was
                      documented, in part, by the series of email messages requesting assistance
                      and clarifying guidance from several different levels of FSIS management.

                      A similar situation involving the “gap” in the Department’s accountability was
                      reported in our July 2001 report (Audit Report No. 50601-3-Ch). During

5
    Title 9 CFR 327.6, 327.7, and 327.13, dated January 1, 2001.
6
    A private party could include such entities as importers and warehouse managers.

USDA/OIG-A/24099-04-Hy                                                                     Page 24
           visits to FSIS Inspection Houses in New Jersey and Maryland, we found that
           neither APHIS nor FSIS had adequate control over product that arrived at
           ports of entry and was placed on hold. A private party retained control of
           shipments that were stored in Inspection Houses, usually in unsecured
           areas, until they were presented to FSIS for reinspection. Under these
           circumstances, product could have been diverted. Control over the product
           depended on the relationship and coordination between the private party
           and FSIS. In response to our recommendations, the agencies agreed that
           operational procedures for handling meat and poultry involving both FSIS
           and APHIS were not well documented. The agencies further agreed to
           develop requirements and controls for identifying product that was not
           presented for reinspection.

           To ensure that the transfer of accountability for product is seamless between
           APHIS and FSIS, FSIS should clarify its procedures to explain that FSIS has
           control over all imported product once APHIS has completed its review.

                                        Amend FSIS procedures for presenting
 RECOMMENDATION NO. 11                  imported product for reinspection to clarify that
                                        FSIS has control over all product once the
                                        APHIS review is completed.

           FSIS Response

           FSIS will clarify the authority over imported product before it is presented to
           FSIS for inspection. FSIS will amend the Import Inspection Procedural
           Manual accordingly. This action will be completed by September 2003.

           OIG Position

           We accept FSIS’ management decision.




USDA/OIG-A/24099-04-Hy                                                           Page 25
EXHIBIT A – FSIS RESPONSE TO THE DRAFT REPORT
                                                Page 1 of 7




USDA/OIG-A/24099-04-Hy                            Page 26
                         Page 2 of 7




USDA/OIG-A/24099-04-Hy     Page 27
                         Page 3 of 7




USDA/OIG-A/24099-04-Hy     Page 28
                         Page 4 of 7




USDA/OIG-A/24099-04-Hy     Page 29
                         Page 5 of 7




USDA/OIG-A/24099-04-Hy     Page 30
                         Page 6 of 7




USDA/OIG-A/24099-04-Hy     Page 31
                         Page 7 of 7




USDA/OIG-A/24099-04-Hy     Page 32
